C@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-287
JORGE L. MEDINA,
Petitioner,

ve
WILLIAM P. BARR,
Respondent.

AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Ist day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE FIREARMS POLICY COALITION,
FIREARMS POLICY FOUNDATION, CALIFORNIA GUN RIGHTS FOUNDATION, AND CITIZENS COMMITTEE
FOR THE RIGHT TO KEEP AND BEAR ARMS IN SUPPORT OF PETITIONER in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
JOSEPH G.S. GREENLEE
Counsel of Record
FIREARMS POLICY COALITION
1215 K Street, 17th Floor
Sacramento, CA 95814
(916) 378-5785
jgr@fpchq.org

Subscribed and sworn to before me this 1st day of October, 2019.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

sont, EC Ollie Odean hk, Gh le

My Commission Expires Nov 24, 2020

 

 

Notary Public

38705
SERVICE LIST

Alan Gura

Gura PLLC

916 Prince Street
Suite 107

Alexandria, VA 22314
alan@gurapllc.com
703-835-9085
Counsel for Petitioner

Noel J. Francisco

Solicitor General

United States Department of Justice
Room 5616

950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217

Counsel for Respondent
